HHS/OIG-Audit--"Audit of Cash Management System Harvard University(A-01-98-04000)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Cash Management System Harvard University" (A-01-98-04000)
September 24, 1998
Complete
Text of Report is available in PDF format (354 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of the cash management system at Harvard University (University). The objectives
of our audit were to determine whether the Universitys cash management policies and procedures were in accordance
with Office of Management and Budget (OMB) Circular A-l10, Uniform Administrative Requirements for Grants and Other
Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit Organizations, to (1) limit requests
for Federal funds to the minimum amounts needed to carry out the purpose of approved Federal programs and projects, (2)
maintain advances of Federal funds in interest bearing accounts, and (3) remit interest earned to the Department of Health
and Human Services (HHS), Payment Management System (PMS).
The University limits its cash requests for HHS funds to the amount of issued checks at the time of the cash requests.
While the University posts issued checks to the cash disbursements report daily, the University averaged about five requests
for HHS cash per month (every six days). We reviewed 100 Accounts Payable (A/P) checks and found that checks did not clear
the bank for about 15 days after the transactions were posted to the cash disbursements report. We found that 40 of the
100 checks cleared before the request for Federal funds and for the remaining 60 checks the University received Federal
funds an average of 11 days prior to the check clearing. Thus, the University earned interest on a portion of HHS funds
(depending upon the date HHS funds are received and the actual date checks cleared the bank). However, the University did
not remit the interest earned, as required, to the Federal government. This occurred because the University, in determining
whether it earned interest, utilized the cash disbursements report, which includes disbursements as of the date the University
issued checks, rather than using the date the bank cleared the checks. As such, the University earned interest on the uncashed
checks and related indirect costs but retained the interest income for its own use rather than submit the interest earned
to PMS.
We recommend that the University calculate interest earned using a method which considers the date that the bank clears
checks rather than the date the University issues checks, and as appropriate, remit interest earned to PMS.
In response to our draft report, University officials recognize that the reported conditions support our recommendation.
Further, they believe that initiatives currently underway will directly address the reported conditions and that significant
improvements will be made over the next year to the Universitys cash management processes that will preclude the
necessity of performing an interest calculation for letter of credit. We are pleased that the University is in the process
of improving its cash management system, and we agree that once fully operational, the initiatives should eliminate interest
earned on Federal funds. However, until those initiatives are fully operational, it is the Universitys responsibility
to calculate interest earned on Federal funds and remit interest earned, which exceeds $250, to PMS.